The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
     UNITED STATES INTERNATIONAL TRADE COMMISSION

                         OFFICE OF INSPECTOR GENERAL
                                 WASHINGTON, DC 20436



June 13, 2012                                                      OIG-KK-08


Chairman Okun:

This memorandum transmits the Office of Inspector General’s final report, Evaluation of
Modifications to the Harmonized Tariff Schedule, OIG-ER-12-08. In finalizing this
report, we analyzed management’s comments to our draft report and have included those
comments in their entirety as Appendix A.

This evaluation focused on whether the Commission accurately reflected changes to the
Harmonized Tariff Schedule. We reviewed two Presidential Proclamations and two
updates resulting from 484(f) Committee meetings and evaluated whether the required
modifications to the Harmonized Tariff Schedule were made completely and accurately.

This report contains eight recommendations for corrective action. In the next 30 days,
please provide me with your management decisions describing the specific actions that
you will take to implement each recommendation.

Thank you for the courtesies extended to the evaluators during this review.




Philip M. Heneghan
Inspector General
                               U.S. International Trade Commission
                                                  Evaluation Report



                                               Table of Contents
Results of Evaluation .................................................................................... 1

Problem Areas and Recommendations....................................................... 2
   Problem Area 1: The Commission Did Not Have a Documented, Standard Procedure
   for Making Changes to the Harmonized Tariff Schedule ............................................... 2

   Problem Area 2: The Commission Did Not Have a Documented Supervisory Review
   Process for Changes Made to the Harmonized Tariff Schedule ..................................... 3

   Problem Area 3: The Commission Did Not Track Corrections Made to the Harmonized
   Tariff Schedule ................................................................................................................ 4

   Problem Area 4: The Commission Presented Inconsistent Versions of the Harmonized
   Tariff Schedule on the Commission’s Website ................................................................ 7

Management Comments and Our Analysis ............................................. 13

Objective, Scope, and Methodology .......................................................... 14

Appendix A: Management Comments on Draft Report ......................... A

Charts, Figures, and Tables
   Chart 1: Harmonized Tariff Schedule Orders and Sales 2003-2012 ............................ 5
   Chart 2: Harmonized Tariff Schedule CD-ROM Orders and Sales 2003-2012 ............ 6
   Chart 3: Harmonized Tariff Schedule Website Statistics .............................................. 9

   Figure 1: Flowchart of Harmonized Tariff Schedule Processes .................................. 10
   Figure 2: Flowchart of Alternative Harmonized Tariff Schedule Process .................. 12

   Table 1: Formats and Locations of Harmonized Tariff Schedule Files ......................... 7




OIG-ER-12-08                                                   -i-
                     U.S. International Trade Commission
                                  Evaluation Report



                             Results of Evaluation
The objective of this evaluation was to answer the following question:

       Does the Commission accurately reflect changes to the Harmonized Tariff
       Schedule of the United States in a timely manner?

No. The Commission did not accurately reflect changes to the Harmonized Tariff
Schedule of the United States in a timely manner.

We analyzed four documents that required modifications to be made in the Harmonized
Tariff Schedule (HTS). Of the 423 required changes, 45 were either omitted or made
incorrectly in the Harmonized Tariff Schedule. We also identified typographical errors,
such as punctuation discrepancies and misspellings. In addition, we identified
inconsistencies in the Harmonized Tariff Schedule information provided to the public on
the Commission’s website.

We identified two problem areas associated with the inaccurate modifications to the
Harmonized Tariff Schedule: (1) The Commission did not have a documented, standard
procedure for making changes to the Harmonized Tariff Schedule; and (2) the
Commission did not have a supervisory process to review and approve changes made to
the Harmonized Tariff Schedule.

In addition, the evaluation identified two other problem areas that compromise the
integrity and transparency of the Harmonized Tariff Schedule information provided
through the public website: (3) The Commission did not track corrections made to the
Harmonized Tariff Schedule; and (4) the Commission presented inconsistent versions of
the Harmonized Tariff Schedule on the Commission’s website.




OIG-ER-12-08                              -1-
                     U.S. International Trade Commission
                                  Evaluation Report



                 Problem Areas and Recommendations

                                    Problem Area 1:
The Commission Did Not Have a Documented, Standard Procedure for Making
               Changes to the Harmonized Tariff Schedule


To ensure the quality and integrity of tariff data, the Commission must have a standard
procedure for making changes to the Harmonized Tariff Schedule. A standard procedure
ensures that changes made to the Harmonized Tariff Schedule are completed in a
consistent manner and provide a means to reduce the chance of human error.

Changes to the Harmonized Tariff Schedule are triggered by Presidential Proclamations,
484(f) Committee decisions, trade agreements, and miscellaneous tariff bills. These
modifications are completed within the Commission’s Office of Tariff Affairs and Trade
Agreements (TATA). This office had six nomenclature analysts who were assigned to
specific chapters of the Harmonized Tariff Schedule, and each analyst was responsible
for ensuring required changes were made to their respective chapters when necessary.

The Commission did not provide the analysts with a documented standard procedure to
follow when making these changes. As a result, each nomenclature analyst developed
and followed his or her own undocumented process to modify the Harmonized Tariff
Schedule. Any guidelines or “rules” for making changes were either sent through email
correspondence as reminders or communicated orally.

The lack of a documented, standard procedure resulted in inconsistent processes for
making changes to the Harmonized Tariff Schedule. By not formally documenting the
procedures and formatting requirements for making changes to the Harmonized Tariff
Schedule, the process the Commission followed allowed for an increased risk of human
error. In addition, without written procedures, the Commission did not have a clear way
to train future analysts to ensure continuity of operations when personnel change jobs or
leave the Commission.

Recommendation 1: The Commission create and document a standard procedure for
updating the Harmonized Tariff Schedule.




OIG-ER-12-08                               -2-
                     U.S. International Trade Commission
                                  Evaluation Report



                                    Problem Area 2:
 The Commission Did Not Have a Documented Supervisory Review Process for
            Changes Made to the Harmonized Tariff Schedule


Any change to the Harmonized Tariff Schedule should undergo a supervisory review
process to ensure modifications to the Harmonized Tariff Schedule are reflected
accurately.

During the evaluation, we found the Commission processes did not include an
independent review of the changes made to the Harmonized Tariff Schedule. Instead,
whenever a change was deemed necessary, the analyst assigned to the affected chapter
would make the change. Normally, the analyst began the process to make the change by
modifying the chapter version of the WordPerfect document. During the drafting process,
each chapter was protected so that only the analyst making changes had access to it.
Once the analyst was finished making changes to the chapter document, it was uploaded
to the shared drive and made available to the web publisher.

The web publisher was tasked with converting the WordPerfect documents into PDF files
and then uploading the PDF files to the Commission’s website. In the event that an
analyst was not available when changes needed to be made, the updates were completed
by other analysts on the shared directory from the latest version of the WordPerfect
document.

The web publisher performed a cursory review during the conversion of the WordPerfect
files to the PDF files for obvious formatting mistakes; however, this examination did not
systematically review the modifications to the Harmonized Tariff Schedule for accuracy.
The result was that the accuracy of each modification was solely dependent upon the
analyst that made the change.

We identified 33 errors in the required changes from Presidential Proclamation 4276.
These errors could have been avoided if the Commission had a supervisory review
process in place to verify that the changes made to the Harmonized Tariff Schedule were
accurate.

Recommendation 2: The Commission create and implement a standard quality review
process for changes made to the Harmonized Tariff Schedule.




OIG-ER-12-08                              -3-
                     U.S. International Trade Commission
                                  Evaluation Report



                                    Problem Area 3:
             The Commission Did Not Track Corrections Made to the
                        Harmonized Tariff Schedule


To provide transparency in the Harmonized Tariff Schedule process, the Commission
should track changes by internally documenting all changes made to the Harmonized
Tariff Schedule and notify the public when substantive corrections are made.

The Commission is statutorily required to produce a printed copy of the Harmonized
Tariff Schedule. The printed version is usually produced annually, but quickly becomes
outdated because of the timing of legislative changes and other corrections. In order to
provide the public with updated tariff information in a timely manner, the Commission
provides the Harmonized Tariff Schedule in several electronic formats on their website.
The electronic Harmonized Tariff Schedule files are updated and reposted on a continual
basis throughout the year such as when legislation is passed, Presidential Proclamations
and Federal Register Notices are issued, or when errors have been identified and
corrected.

In order to provide transparency, the Commission should inform the public whenever a
significant change is made to the Harmonized Tariff Schedule. We found that the
Commission only provides notification to the public when a mandated change is made
and does not provide notification when substantive errors have been corrected. For
example, on March 15, 2012 the Commission uploaded a revision of the Harmonized
Tariff Schedule to their website and provided notification that the changes were
associated with the new free trade agreement with Korea; however, after this update, an
additional 47 Harmonized Tariff Schedule documents were uploaded to the
Commission’s website. The Commission did not provide any information to inform the
public of significant changes to the Harmonized Tariff Schedule or inform users that the
documents had even been updated since the March 15, 2012 revision.

Without notification of substantive corrections, the public was unaware that any
significant changes may have occurred and might still have relied on an incorrect earlier
version of the Harmonized Tariff Schedule. Since the public relies on the Commission’s
online version of the Harmonized Tariff Schedule, it is important to provide notification
to the public when substantive corrections are made.

In addition, the Commission did not document or categorize the different types of
corrections made to the Harmonized Tariff Schedule. As a result, management was
unaware of the frequency or types of changes made to the Harmonized Tariff Schedule
throughout the year. Keeping a written record of corrections would create a way to track



OIG-ER-12-08                              -4-
                         U.S. International Trade Commission
                                        Evaluation Report


and measure the accuracy of the Harmonized Tariff Schedule, build an atmosphere of
accountability, and ensure that the Commission is not making systemic errors.

During this evaluation, many of the staff members interviewed referred to the statutory
requirement to publish a printed version of the Harmonized Tariff Schedule as a burden
to the Commission and a driving force for how the Harmonized Tariff Schedule is
maintained.

As you can see from the chart below, demand for the printed version of the Harmonized
Tariff Schedule has decreased significantly over the past ten years from 11,310 to 1,715
copies sold.

            Chart 1: Harmonized Tariff Schedule Orders and Sales 2003-2012

           Harmonized Tariff Schedule Orders and Sales 2003-2012
       14,000     13,000

       12,000        11,310

       10,000

        8,000                                                    7,000

        6,000                                                       4,922

        4,000                                                                                  3,000
                                                                                                    1,715
        2,000

            Ͳ
                  2003       2004    2005   2006     2007        2008      2009   2010   2011   2012

                                            Orders       Sales

Source: Government Printing Office


To prepare the Harmonized Tariff Schedule for printing and to order the setup of a
printing run costs the Commission more than $42,000. Eliminating the requirement to
print the Harmonized Tariff Schedule would save the Commission these funds.

Sales of the CD ROM version showed a similar decrease over the same time period,
going from 272 in 2003 to 44 in 2011.

OIG-ER-12-08                                       -5-
                             U.S. International Trade Commission
                                             Evaluation Report



         Chart 2: Harmonized Tariff Schedule CD-ROM Orders and Sales 2003-2012

     Harmonized Tariff Schedule CD-ROM Orders and Sales 2003-2012
              450
       450
       400
                                 350
       350
       300          272

       250                                        221

       200                             156
       150                                              126      123
                                                                            100
       100                                                             59         44
        50
         0
              2003        2004   2005 2006       2007 2008       2009       2011
                                     CD'sOrdered    CD'sSold

Source: Government Printing Office; data from 2010 not available.

It is important to note that the controlling statutory language regarding the Harmonized
Tariff Schedule permits the Commission to recommend to the President modifications
that will alleviate “unnecessary administrative burdens1.”

Recommendation 3: The Commission establish a process to document all corrections
made to the Harmonized Tariff Schedule.

Recommendation 4: The Commission develop a process to categorize the types of
corrections made to the Harmonized Tariff Schedule.




1
    19 USC 3005 (a)(4)

OIG-ER-12-08                                       -6-
                      U.S. International Trade Commission
                                   Evaluation Report


Recommendation 5: The Commission develop a process to provide the public with
notification of substantive corrections including the date when the corrected electronic
versions of the Harmonized Tariff Schedule are uploaded on the website.

Recommendation 6: The Commission recommend to the President that the requirement
for printing the HTS be eliminated.




                                  Problem Area 4:
               The Commission Presented Inconsistent Versions of the
               Harmonized Tariff Schedule on the Commission’s Website


The Commission maintained many different electronic files as part of updating and
publishing the Harmonized Tariff Schedule and related files. The Office of Tariff Affairs
and Trade Agreements maintained numerous Word Perfect and Adobe electronic files
and the Office of the Chief Information Officer maintained electronic files in different
formats including Delimited Text, XML, and Oracle Database files. In addition, the two
offices used separate processes to update the electronic formats of the Harmonized Tariff
Schedule. All of these documents are presented as the Harmonized Tariff Schedule to the
public on the Commission’s website.

The following table identifies the different electronic formats and locations of the various
Harmonized Tariff Schedule electronic files maintained by the Commission.

          Table 1: Formats and Locations of Harmonized Tariff Schedule Files

    Formats and Locations of Harmonized Tariff Schedule Files

                                      Personal        Shared       Public         CIO
                                      Directory      Directory     Website
  WordPerfect – By Chapter               X              X
  WordPerfect – Full Edition                            X
  Adobe – By Chapter                                    X             X
  Adobe – Full Edition                                  X             X
  Delimited Text Files                                  X             X            X
  XML Files                                                                        X
  Oracle Database                                                     X            X




OIG-ER-12-08                                -7-
                     U.S. International Trade Commission
                                  Evaluation Report


As a result of the multiple formats and processes, there was confusion managing the
different inputs, controlling the numerous versions, knowing when to provide supervisory
review, and where in the process could approval of changes to the Harmonized Tariff
Schedule be made. This confusion resulted in misleading Harmonized Tariff Schedule
information being provided on the Commission’s website and a lack of clarity for users.

The Commission should use a single database to manage the Harmonized Tariff Schedule
to ensure consistency, version control, and accountability.

The separate electronic formats and different processes used to update the Harmonized
Tariff Schedule resulted in inconsistent information presented on the website. We found
significant inconsistencies between the WordPerfect files and the XML file (the ‘Tariff
Search Tool’). For example, the statistical suffixes changed in the January 484(f)
Committee Minutes for subheading 7215.50.00 were changed in the WordPerfect
formats, but not in the XML format.

As a result, if someone was using the Tariff Search Tool to see if a pending request for a
statistical change had been approved, this change would not show up on the search, and
the individual would have received incorrect information.

Another example was identified in U.S. Notes 3-7 to Subchapter VIII of Chapter 99
where the XML file had not been updated since 2009 and the WordPerfect formats were
only updated through 2011; however, the Presidential Proclamation we evaluated had this
information updated through 2012.

The differing online versions of Harmonized Tariff Schedule information with various
discrepancies are used by numerous parties: the Commission’s internal staff, other
government agencies (e.g., Customs), and the public. The errors in these products could
detract from the public impression of the Commission’s integrity, but more importantly
could hurt the U.S. economy by providing inaccurate information that is used by
companies to make business decisions on whether or not to import items.

The Harmonized Tariff Schedule is the most frequently visited site on the Commission’s
website. Looking at the gross numbers of visits to the different versions of the
Harmonized Tariff Schedule posted on the website it is clear that different users approach
the Harmonized Tariff Schedule differently.




OIG-ER-12-08                               -8-
                         U.S. International Trade Commission
                                         Evaluation Report


The Harmonized Tariff Schedule search tool on the Commission’s website was used
almost four and a half million (4,500,000) times last year to search for tariff rates. The
“by chapter” was used 1,900,000 times and the entire Harmonized Tariff Schedule was
used 400,000 times.

                     Chart 3: Harmonized Tariff Schedule Website Statistics

                 Harmonized Tariff Schedule Website Statistics
            5,000,000
                                               4,500,000.00
            4,500,000
            4,000,000
            3,500,000                                         HarmonizedTariff
            3,000,000                                         Schedule(FullEdition)
            2,500,000                                         HarmonizedTariff
                                       1,900,000              Schedule(byChapter)
            2,000,000
            1,500,000                                         HarmonizedTariff
            1,000,000                                         ScheduleSearchTool
                            400,000
             500,000
                    Ͳ
                                  WebsiteHits

Source: USITC Office of the Chief Information Officer



It is important to note that the controlling statutory language regarding the Harmonized
Tariff Schedule permits the Commission to recommend to the President modifications “to
ensure that the Harmonized Tariff Schedule is kept up-to-date in light of changes in
technology2.”

We developed a flowchart (Figure 1) to illustrate our understanding of the processes used
by the Commission to maintain and publish the Harmonized Tariff Schedule. The
flowchart is based on interviews and input from staff members of the Office of Tariff
Affairs and Trade Agreements and the Office of the Chief Information Officer. The
flowchart shows (in orange) the number of different electronic files that need to be
produced and maintained as part of the current process and the blue shows the number of
different processes that act on those electronic files. The flowchart does not show any
green because there is no supervisory approval of changes made to the Harmonized Tariff
Schedule.



2
    19 USC 3005 (a)(3)

OIG-ER-12-08                                        -9-
               U.S. International Trade Commission
                        Evaluation Report




OIG-ER-12-08                  - 10 -
               U.S. International Trade Commission
                        Evaluation Report




OIG-ER-12-08                  - 11 -
                    U.S. International Trade Commission
                                 Evaluation Report


The process to produce and revise the Harmonized Tariff Schedule should be redesigned
and should leverage modern technological tools to provide a single repository for raw
Harmonized Tariff Schedule data that has the characteristics of single input, version
control, and supervisory review and approval of changes to the database. An example of
an alternative process using a single repository and including supervisory approval is
shown below in Figure 2.


        Figure 2: Flowchart of Alternate Harmonized Tariff Schedule Processes




OIG-ER-12-08                            - 12 -
                     U.S. International Trade Commission
                                  Evaluation Report


A single database would ensure that changes are made one time and in one place. It
would also aid in developing a standard procedure for making changes, ensuring that
supervisory review occurs, and documenting and publishing corrections made to the
Harmonized Tariff Schedule. The data stored in the database could be automatically
output into a number of required formats, including a searchable Internet database,
electronic formats required for Customs and other agencies, and for print publication (or
printing by the public). In addition, posting an Internet-accessible, machine-readable
version of the HTS would allow the public to build front-end applications for themselves
or for others.

An upgrade like this will result in a system that minimizes the effort to input data into
Harmonized Tariff Schedule, reduces errors from data entry, and would allow many parts
of the Harmonized Tariff Schedule to update automatically. Instead of having to enter in
staged duty rates from free trade agreements by hand, the database could update staged
rates automatically. The database could also, for example, automatically flag tariff lines
and make appropriate changes when Miscellaneous Tariff Bills expire.

Recommendation 7: The Commission develop and implement a single database to
manage the Harmonized Tariff Schedule.

Recommendation 8: The Commission determine whether changes to the law with
regard to formatting and applying new technology should be recommended to the
President.



              Management Comments and Our Analysis

On June 4, 2012, Chairman Deanna Tanner Okun provided management comments on
the draft report.

The Chairman agreed with the findings of our evaluation.




OIG-ER-12-08                              - 13 -
                      U.S. International Trade Commission
                                   Evaluation Report



                     Objective, Scope, and Methodology
Objective:

Does the Commission accurately reflect changes to the Harmonized Tariff Schedule of
the United States in a timely manner?

Scope:

The scope of this evaluation was focused on the changes made in the two most recent
484(f) Committee Minutes and in the two most recent Presidential Proclamations:

   x     May 18, 2011, 484(f) Committee Minutes
   x     November 2, 2011, 484(f) Committee Minutes
   x     Presidential Proclamation 8770
   x     Presidential Proclamation 4276
         
For purposes of this evaluation, the term accurate was defined as meaning that all
changes were completed correctly, including punctuation and spelling. The term timely
was defined as meaning that the modifications were provided accurately to the public on
or before the effective date. If the modifications were provided to the public on or before
the effective date, but were not accurate, then they did not meet the definition of timely.

For purposes of this evaluation, changes counted are related specifically to the number of
lines that were to be changed in the Harmonized Tariff Schedule, and do not include the
number of changes required to each line. For example, a single line could require
multiple changes in the Harmonized Tariff Schedule. Regardless of whether a line
contained one or multiple errors, it was counted as a single error.

Methodology:

   x     We interviewed the Office of Tariff Agreements and Trade Agreements staff
         members.
   x     We interviewed relevant staff in the Office of the Chief Information Officer who
         worked with the XML file and the ‘Tariff Search Tool.’
   x     We acquired printed copies of the Minutes for the 484(f) Committee meeting of
         May 18, 2011, the Minutes for the 484(f) Committee meeting of November 2,
         2011, Presidential Proclamation 8770, Presidential Proclamation 4276, and the
         2012 Official Harmonized Tariff Schedule of the United States.
   x     We reviewed both Presidential Proclamations and the November 2, 2011, 484(f)
         Committee Minutes by checking the printed documents against the printed


OIG-ER-12-08                               - 14 -
                   U.S. International Trade Commission
                               Evaluation Report


      version of the Harmonized Tariff Schedule. We also checked these documents
      against the online versions of the Harmonized Tariff Schedule.
  x   The May 18, 2011, 484(f) Committee Minutes were checked against the online
      edition of the first revision to the 2011 Harmonized Tariff Schedule.
  x   A document was created that described the results. The print version of the
      Harmonized Tariff Schedule was highlighted if the changes were made accurately
      and marked in pen where the changes were made inaccurately.
  x   A fact-checker then reviewed the documents created to ensure their accuracy.




OIG-ER-12-08                           - 15 -
               U.S. International Trade Commission
                           APPENDIX


     Appendix A: Management Comments on Draft Report




OIG-ER-12-08                  -A-
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870’s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
